                  The Use of Audit Trails to Monitor Key
              Networks and Systems Should Remain Part of
                the Computer Security Material Weakness

                                 September 2004

                       Reference Number: 2004-20-131




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        September 13, 2004




      MEMORANDUM FOR CHIEF INFORMATION OFFICER
                     CHIEF, MISSION ASSURANCE


      FROM:                  Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Use of Audit Trails to Monitor Key
                             Networks and Systems Should Remain Part of the Computer
                             Security Material Weakness (Audit # 200420004)


      This report presents the results of our review of the effectiveness of the Internal
      Revenue Service’s (IRS) actions to resolve vulnerabilities associated with its computer
      security material weakness. The IRS has segregated this material weakness into nine
      areas, one of which covers the monitoring of key networks and systems, commonly
      referred to as audit trails. The Department of the Treasury requested that the Treasury
      Inspector General for Tax Administration (TIGTA) provide an independent assessment
      of the effectiveness of the IRS’ actions to address its computer security material
      weakness. This report is from one of five reviews conducted this fiscal year to meet the
      request.
      In summary, the Department of the Treasury requires that computer systems and
      networks that process sensitive data maintain an audit trail of user events to detect
      unauthorized actions. The IRS has taken some key steps toward resolving the audit
      trails material weakness. Specifically, the Office of Mission Assurance has developed
      an enterprise-wide audit trail strategy to ensure reviews of audit trail information are
      conducted on a routine basis. In addition, it has developed overall standards for audit
      trails and coordinated with key Information Technology Service organizations to draft
      and implement procedures for reviewing audit trails of various operating system
      platforms.
      The IRS carried out its strategy for addressing audit trail concerns on its mainframe and
      Windows-based computers. Actions were successful in resolving the audit trails
      material weaknesses on those operating systems. However, audit trails are not being
                                                        2

run on the UNIX-based computers because software procured to help analyze the
voluminous audit trail data still is not working as intended. Audit trails are usually large
files that can be extremely difficult to analyze manually. The use of automated software
to analyze these data is likely to be the difference between unused audit trail data and a
robust program.
The IRS strategy to address audit trails did not include three issues we believe are
critical. Specifically:
    − Some UNIX servers cannot generate audit trails without impairment to the
      servers’ performance. The IRS has acknowledged this deficiency but cannot
      resolve it until the applications on these servers have been migrated to another
      platform.
    − Audit trails on applications have not been addressed. Audit trails are reviewed
      on very few applications in the IRS, with the most notable being the Integrated
      Data Retrieval System (IDRS)1 application.
    − The IRS’ modernized system to collect and generate useful audit trail reports was
      not working as intended. While the Security Audit and Analysis System (SAAS)
      was collecting and storing audit trail data, it did not have adequate functionality
      and software performance to support any queries. Also, operating procedures
      for this System have not been developed.
Overall, the IRS’ strategy to address audit trails was aimed at the root causes that have
plagued the IRS for years (not having computer capacity, automated reporting software
needed to help analyze the vast amount of audit trail information, accountability and
staffing to carry out audit trail review responsibilities, and sufficient guidelines to assist
in conducting audit trail reviews). While significant progress has been made in
implementing this strategy, problems still exist. Additional effort is needed to ensure
audit trails are run and monitored on the UNIX-based computers, existing applications,
and modernized applications before the audit trails material weakness area is
downgraded.
We recommended the Chief, Mission Assurance, continue reporting audit trails as part
of the computer security material weakness until audit trails are routinely reviewed for
UNIX-based computers, a reasonable approach is developed and implemented for
reviewing audit trails of applications in addition to the operating systems, and audit trails
are functioning for the modernized applications and operating systems. We also
recommended the Chief Information Officer (CIO) continue with updating and
implementing the audit trail solution for UNIX-based computers, ensure audit trails are
being regularly generated and reviewed, and coordinate with the Office of Mission
Assurance to develop and implement a reasonable approach for reviewing audit trails
on major applications.


1
 The Integrated Data Retrieval System enables employees to have instantaneous visual access to certain taxpayer
accounts. The system can be used to research accounts, enter transactions or collection information, or generate
notices and other documents.
                                                          3

Management’s Response: The Chief, Mission Assurance, partially concurred with our
recommendations, specifically that the IRS will continue to ensure effective
implementation of its security program for all computing platforms, including conducting
audit trails on UNIX servers. However, the Chief, Mission Assurance, disagreed that
the IRS should continue to report audit trails as part of the computer security material
weakness and believes the IRS has completed sufficient corrective actions to
downgrade this area to a significant control deficiency. The Chief, Mission Assurance,
also disagreed that not having application audit trails and deficiencies on the SAAS
should be included in the audit trail material weakness area.
The CIO agreed with our recommendations and has directed the Enterprise Operations
Services office to enhance, test, and install the audit trail solution on UNIX-based
servers. After installation, the Enterprise Operations Services office will ensure audit
trails are regularly generated and reviewed. In addition, the CIO will work with the
Chief, Mission Assurance, and other business units to address reviewing audit trails on
major applications. In the interim, the IRS has issued specific requirements for
application-level auditing, will work with Modernization projects to ensure audit
requirements are built into applications, and will determine if application auditing can be
implemented when applications undergo system recertification. Management’s
complete response to the draft report is included as Appendix IV.
Office of Audit Comment: We strongly believe that audit trails should remain part of the
computer security material weakness. Audit trail deficiencies in the UNIX environment
affect a significant portion of the IRS’ computer infrastructure. Based on the Office of
Mission Assurance’s inventory of all IRS systems, as of February 2004, 19 (33 percent)
of 58 Major Applications and Applications of Interest2 operate on a UNIX platform, which
means that employees’ activities on those systems are not being monitored for
inappropriate access and use. The Chief, Mission Assurance, agreed to provide
enhanced auditing and monitoring of the UNIX servers that cannot generate audit trails,
but he did not provide specific corrective actions. The impact of not having audit trails
for these UNIX servers is noteworthy because 11 (19 percent) of the 58 Major
Applications and Applications of Interest operate on these types of UNIX servers, which
totals over 700 servers throughout the IRS.
In addition, we contend that application audit trails are critical for monitoring user activity
and should be considered when determining the materiality of computer security
weakness areas. As stated in this report, the IRS has taken great strides on
maintaining and reviewing audit trails over its IDRS application. Just as critical are the
numerous other applications that contain sensitive taxpayer data. Likewise, we believe
the audit trail system for modernized systems should be included in the audit trail
material weakness area. While our review on the SAAS was not originally planned as
2
  The IRS has defined Major Applications as applications that require special attention to security because of the
severe adverse effect that compromise of those applications would have on the IRS mission, tax administration
functions, and/or employee welfare. In addition, Applications of Interests are defined as applications that do not
possess the level of interest, size, or scope of Major Applications but require additional levels of control because,
based on business functionality, level of exposure and third-party interest, compromise would significantly degrade
the IRS mission and tax administration operations.
                                           4

part of our material weakness reviews, the review of audit trails for modernized systems
is at least as critical as reviews of legacy systems.
Accordingly, we intend to elevate our disagreement to the Department of the Treasury
for resolution. The Deputy Commissioner for Operations Support is responsible for
ensuring the IRS Commissioner submits a written reply to the Assistant Secretary for
Management and Chief Financial Officer of the Department of the Treasury within
30 calendar days of the final report issuance date. This reply should explain the IRS’
reasons for disagreement with the recommendations contained in this audit report. The
IRS Commissioner will provide a copy of the reply to the TIGTA. Resolution shall be
made within a maximum of 6 months after issuance of a final TIGTA audit report, in
accordance with Office of Management and Budget Circular A-50.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                The Use of Audit Trails to Monitor Key Networks and Systems
               Should Remain Part of the Computer Security Material Weakness



                                                  Table of Contents


Background ............................................................................................... Page 1
Significant Progress Has Been Made in Implementing the Internal
Revenue Service Audit Trail Strategy........................................................ Page 3
The Internal Revenue Service Strategy Did Not Address All
Significant Audit Trail Weaknesses ........................................................... Page 7
         Recommendation 1: .......................................................................Page 10
         Recommendation 2: .......................................................................Page 11
         Recommendation 3: .......................................................................Page 12
         Recommendations 4 and 5: ...........................................................Page 13
         Recommendation 6: .......................................................................Page 14

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Management’s Response to the Draft Report .................... Page 19
              The Use of Audit Trails to Monitor Key Networks and Systems
             Should Remain Part of the Computer Security Material Weakness

                                  The Federal Managers’ Financial Integrity Act of 19821
Background
                                  requires that each agency conduct annual evaluations of its
                                  systems of internal accounting and administrative controls
                                  and submit an annual statement on the status of the agency’s
                                  system of management controls. As part of the evaluations,
                                  agency managers identify control areas that can be
                                  considered material weaknesses.
                                  The Department of the Treasury has defined a material
                                  weakness as, “shortcomings in operations or systems which,
                                  among other things, severely impair or threaten the
                                  organization’s ability to accomplish its mission or to prepare
                                  timely, accurate financial statements or reports.”2 The
                                  Office of Management and Budget monitors progress on
                                  resolving these weaknesses.
                                  In October 2002, the Internal Revenue Service (IRS)
                                  combined five security material weaknesses3 that were
                                  mostly based on facility types into one material weakness on
                                  computer security. This was done to address computer
                                  security from an enterprise-wide approach and better align
                                  the weakness areas with the new organizational structure.
                                  The IRS further segregated the computer security material
                                  weakness into nine areas,4 one of which covers the
                                  monitoring of key networks and systems, commonly
                                  referred to as audit trails. The IRS’ goal was to effectively
                                  monitor key networks and systems to identify unauthorized
                                  activities and inappropriate system configurations.

                                  1
                                    31 U.S.C. §§ 1105, 1113, 3512 (2000). Legislation requiring Federal
                                  Government agencies to establish and maintain adequate internal control
                                  systems.
                                  2
                                    Memorandum from the Secretary, Department of the Treasury, dated
                                  March 19, 2002, entitled, “Action Plan for Material Weakness
                                  Resolution and Audit Follow-up.”
                                  3
                                    The five material weaknesses were Computing Center Security, Field
                                  Office Security, Service Center Security, Other IRS Facility Security,
                                  and System Certification.
                                  4
                                    The computer security material weakness consists of (1) network
                                  access controls, (2) key computer applications and system access
                                  controls, (3) configuration of software, (4) functional business,
                                  operating, and program units security roles and responsibilities,
                                  (5) segregation of duties between system and security administrators,
                                  (6) contingency planning and disaster recovery, (7) monitoring of key
                                  networks and systems, (8) security training, and (9) certification and
                                  accreditation.
                                                                                                 Page 1
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     Audit trails are historical records of user activity and
                     application processes. They are often needed to perform
                     diagnostic troubleshooting on system operational problems.
                     Audit trails are also needed to detect unauthorized intrusions
                     and provide the documented evidence needed for incident
                     response and subsequent prosecution efforts.
                     The IRS has a long history of either not running audit trails
                     or not reviewing them to detect unauthorized activity. Most
                     recently, the Government Accountability Office (formerly
                     the General Accounting Office) reported in May 2003 that
                     the IRS did not have effective audit trail controls and did not
                     routinely monitor key systems to identify unauthorized
                     activities and inappropriate system configurations.5
                     In March 2002, we reported the IRS did not routinely
                     review audit trails for its sensitive systems except the
                     Integrated Data Retrieval System (IDRS).6 The IRS did not
                     have (1) automated reporting software needed to help
                     analyze the vast amount of audit trail information,
                     (2) accountability and staffing to carry out audit trail review
                     responsibilities, (3) sufficient computer capacity to run audit
                     trails, and (4) sufficient guidelines to assist in conducting
                     audit trail reviews.7
                     The Department of the Treasury requested that the Treasury
                     Inspector General for Tax Administration (TIGTA) provide
                     an independent assessment on the effectiveness of the IRS’
                     actions to address its computer security material weakness.
                     This review, related to the monitoring of key networks and
                     systems, is one of five reviews conducted during this fiscal
                     year to meet the request.
                     This audit was conducted in the Office of Mission
                     Assurance in the IRS Headquarters in
                     New Carrollton, Maryland; the Martinsburg, West Virginia,


                     5
                       Information Security: Progress Made, but Weaknesses at the Internal
                     Revenue Service Continue to Pose Risks (GAO-03-44, dated May 2003).
                     6
                       The IDRS enables employees in the field offices and campuses to have
                     instantaneous visual access to certain taxpayer accounts. The system
                     can be used to research accounts, enter transactions or collection
                     information, or generate notices and other documents.
                     7
                       User Activity on Most Sensitive Computer Systems Is Not Monitored
                     (Reference Number 2002-20-075, dated March 2002).
                                                                                   Page 2
             The Use of Audit Trails to Monitor Key Networks and Systems
            Should Remain Part of the Computer Security Material Weakness

                                 and Memphis, Tennessee, Computing Centers;8 and the
                                 Brookhaven, New York, and Memphis, Tennessee,
                                 Campuses9 during the period August 2003 through
                                 April 2004. The audit was conducted in accordance with
                                 Government Auditing Standards. Detailed information on
                                 our audit objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 The IRS Office of Mission Assurance developed an
Significant Progress Has Been
                                 enterprise-wide audit trail strategy to ensure audit trail
Made in Implementing the
                                 information is reviewed on a routine basis. Actions
Internal Revenue Service Audit
                                 included:
Trail Strategy
                                     •   Developing audit trail standards and procedures
                                         based on National Institute of Standards and
                                         Technology (NIST) guidelines.10
                                     •   Coordinating with IRS organizations to develop and
                                         implement audit trail procedures for specific
                                         operating system platforms used within the IRS.
                                     •   Validating that audit trail procedures are functioning
                                         for operating systems environments.
                                 The IRS has made significant progress toward completing
                                 its strategy for addressing audit trail weaknesses. The
                                 Office of Mission Assurance developed overall standards
                                 for audit trails and coordinated with key Information
                                 Technology Service organizations to draft and implement
                                 procedures on the various operating systems used within
                                 the IRS.


                                 8
                                   IRS Computing Centers support tax processing and information
                                 management for IRS campuses through a data processing and
                                 telecommunications infrastructure.
                                 9
                                   IRS campuses are comprised of the Submission Processing, Accounts
                                 Management, and Compliance Services functions, which receive,
                                 process, and archive paper and electronic tax and information returns;
                                 issue taxpayer notices; process refunds; answer taxpayers’ tax
                                 law/account inquires through telephone, correspondence, fax, and email;
                                 adjust taxpayer accounts; conduct correspondence examinations; and
                                 provide taxpayers with post-filing services related to Collection and
                                 Examination function cases.
                                 10
                                    The NIST develops standards and guidelines for providing adequate
                                 information security for Federal Government operations and assets.
                                                                                                Page 3
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     To better organize its approach on addressing audit trail
                     concerns, the IRS categorized its computer system operating
                     environments into the following three tiers:
                          -   Tier 1 systems, which are relatively few in number,
                              are mainframe computers that handle a high volume
                              of critical operational data.
                          -   Tier 2 systems, which number in the hundreds, are
                              UNIX-based minicomputer servers that provide
                              specialized services.
                          -   Tier 3 systems, which number in the thousands, are
                              Windows-based computer servers that run major IRS
                              business unit applications and support the computing
                              infrastructure.
                     The IRS carried out its plans for addressing Tiers 1 and 3.
                     These actions were successful in resolving the audit trail
                     material weaknesses on those operating systems. However,
                     significant issues still exist for Tier 2 systems.
                     Controls over audit trail information on a Tier 1
                     mainframe system had minor problems, which were
                     addressed soon after we identified them
                     In general, we found Tier 1 mainframe systems generated
                     audit trail information that was collected and reported
                     weekly to security staff at various locations. The security
                     staff reviewed the reports and forwarded information on
                     security violations to the appropriate managers for further
                     review. The extent of review of the security violations
                     varied.
                     However, we identified two areas of concern related to audit
                     trails on one Tier 1 mainframe system: audit trail reports
                     did not capture key information, and audit trail reports were
                     not reviewed. When notified of our concerns, the IRS took
                     steps to address these issues.
                     The audit trail reports for the Tier 1 Security and
                     Communications System (SACS),11 which is operated out of
                     both the Martinsburg and Tennessee Computing Centers,

                     11
                        The SACS provides security, communications, and terminal
                     management for thousands of IDRS and Corporate Files On-Line user
                     terminals.
                                                                                 Page 4
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     did not capture all of the information required by IRS
                     standards, specifically whether a computer command issued
                     by a user was a success or failure. NIST guidelines for
                     Federal Government agencies direct that system-level audit
                     trails should capture the functions performed once a user is
                     logged on (e.g., the applications the user tried, successfully
                     or unsuccessfully, to access).
                     Audit trails did not capture the success or failure of
                     attempted accesses for the SACS because the programming
                     was not written to capture this information. Significant
                     effort would be required to recode the SACS to capture
                     success or failure for the audit trail. IRS officials did not
                     believe recoding would be worth the effort. Instead, they
                     have developed alternative procedures that will be adequate,
                     if properly implemented.
                     The procedures require SACS security administrators to
                     search files for commands used to alter files or resources on
                     the system. When a SACS security administrator identifies
                     such commands, a violation report that contains all instances
                     of the use of such commands will be sent to the user’s
                     manager. The manager must review the violation report,
                     explain the use of the sensitive commands, and sign and
                     return the violation report to the SACS security
                     administrator.
                     Our second concern involved inadequate reviews of audit
                     trail reports. The security administrator at one location was
                     not aware that some of the audit trail reports existed and,
                     therefore, was not running or reviewing them. This
                     occurred due to insufficient communication between the
                     site Security Office and the National Headquarters
                     Technical Systems Software Division, which was
                     responsible for producing the audit trail reports. However,
                     after this omission was identified during our audit, the
                     security administrator located the additional audit trail
                     reports and established a review process.
                     While the SACS mainframe computers do not have a
                     significant amount of taxpayer data, they do support other
                     key functions. For example, if unanticipated or
                     unauthorized user actions shut down the SACS, the IDRS
                     application would be unavailable to IRS employees. The

                                                                            Page 5
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     IDRS application is critical to the IRS’ customer service
                     effort and to many other IRS functions.
                     Audit trail procedures for the Tier 2 environment have
                     not been fully implemented
                     To address past concerns over not having automated
                     auditing tools for analyzing audit trails, the IRS identified
                     an audit product that was compatible with the UNIX version
                     running on most Tier 2 servers. This software product,
                     eTrust® Access Control and Audit (commonly called
                     eTrust®), was to produce audit reports that are compliant
                     with IRS audit requirements.
                     During our site visits, we found 184 (74 percent) of
                     250 Tier 2 UNIX servers did not have eTrust® software
                     installed. Generally, audit trails were captured but not
                     reviewed. Even for computers on which eTrust® software
                     was installed, security specialists and system administrators
                     were either not reviewing audit trail information or not
                     performing a complete review that complies with IRS
                     guidance. Employees advised us that eTrust® software
                     produced data that were too voluminous and difficult to
                     comprehend. The eTrust® software does not currently
                     provide a feature to help analyze the data. Consequently,
                     employees who were not familiar with audit trail review
                     procedures were not reviewing the audit trail data.
                     During the deployment of eTrust® software, the IRS also
                     found that the software did not interact properly with some
                     existing applications and that it required more computer
                     capacity than expected. As a result, eTrust® software is not
                     providing adequate audit trail reports for the consolidated
                     Tier 2 UNIX servers. The IRS has been working with the
                     software vendor, who is optimistic that all of the technical
                     issues can be resolved.
                     Audit trails are usually large files that can be extremely
                     difficult to analyze manually. The use of automated
                     software to analyze the data is likely to be the difference
                     between unused audit trail data and a robust program. Until
                     eTrust® software has been installed on all Tier 2
                     consolidated UNIX servers and employees perform required
                     audit trail reviews, audit trails will continue to be a control
                     weakness.

                                                                             Page 6
               The Use of Audit Trails to Monitor Key Networks and Systems
              Should Remain Part of the Computer Security Material Weakness

                                   Tier 3 audit trail controls are working as intended
                                   IRS oversight of Tier 3 audit trails has improved with
                                   installation and use of Aelita® software, an automated tool
                                   similar to eTrust® that collects audit trail information from
                                   Windows servers and generates reports for review. We
                                   interviewed employees responsible for reviewing 450 Tier 3
                                   servers from 5 locations and found the Aelita® software was
                                   working as intended. Generally, employees were
                                   generating, maintaining, and reviewing audit trails.
                                   We identified 27 (6 percent) of 450 servers that did not have
                                   Aelita® software installed. Most of these servers were
                                   nonproduction servers. When we raised this issue, security
                                   specialists stated that the Aelita® software was not supposed
                                   to be installed on nonproduction servers. Officials in the
                                   Office of Mission Assurance subsequently reevaluated that
                                   decision and directed that Aelita® software be installed on
                                   all nonproduction servers.
                                   Although the IRS has substantially implemented its audit
The Internal Revenue Service
                                   trail strategy, except for Tier 2 systems, critical issues have
Strategy Did Not Address All
                                   not been addressed. We believe these issues are significant
Significant Audit Trail
                                   and should be addressed before the audit trails material
Weaknesses
                                   weakness area is downgraded.
                                   Some UNIX servers cannot generate audit trails without
                                   impairing the servers’ performance
                                   Approximately 700 UNIX servers supporting the Integrated
                                   Collection System (ICS)12 application do not have the
                                   capacity to generate audit trails without significantly
                                   degrading performance. As a result, the ICS Project Office
                                   made the decision to not activate the audit trail capabilities
                                   of its servers.
                                   The ICS is a critical system for carrying out the IRS’
                                   collection programs and contains a significant amount of
                                   sensitive taxpayer data. The Office of Mission Assurance
                                   has emphasized its importance by categorizing it as a major
                                   application within the IRS.


                                   12
                                     The ICS provides workload management, case assignment/tracking,
                                   inventory control, electronic mail, case analysis tools, and management
                                   information capabilities to support tax collection fieldwork.
                                                                                                   Page 7
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     The IRS has acknowledged that implementing audit trail
                     logging cannot be consistently achieved on the older ICS
                     UNIX servers, due to insufficient memory capacity and
                     processing resources. The IRS expects to replace these
                     computers in Fiscal Year 2005. Until the computers are
                     replaced, the IRS will not be able to monitor for
                     unauthorized accesses on these servers.
                     Audit trails on applications were not addressed in the
                     IRS’ material weakness efforts
                     To address the audit trails material weakness area, the IRS
                     focused its efforts on operating system platforms. We
                     acknowledge that this is a critical first step. However, the
                     IRS has not recognized the need for audit trails at the
                     application level for most of its systems.
                     Audit trails on an operating system can identify applications
                     accessed by an individual, but they do not provide
                     information on what the individual did after accessing the
                     application. Currently, audit trails are being run and
                     reviewed on very few applications in the IRS. The best
                     example of this is the audit trail functionality of the IDRS.
                     The IRS has effective audit procedures in place to ensure
                     audit trail reports for the IDRS are regularly reviewed to
                     deter and detect unauthorized access or misuse of taxpayer
                     data and accounts. IDRS audit trail reviews have
                     consistently identified potential unauthorized access to
                     taxpayer accounts in spite of the IRS’ zero tolerance policy
                     and awareness programs. For example, in its Semiannual
                     Report to the Congress for the period April 1, 2003, through
                     September 30, 2003, the TIGTA reported it had identified
                     233 potential IDRS security breaches that were referred to
                     its field staff for further investigation.
                     The consistent identification of IDRS security breaches is a
                     strong indication unauthorized accesses to taxpayer data
                     may be occurring without detection on other systems that
                     provide access to the same type of sensitive taxpayer data as
                     the IDRS. It is certain the IRS and the TIGTA Office of
                     Investigations will not detect such security breaches if the
                     IRS continues to generate audit trails on only a few of its
                     hundreds of sensitive computer systems.


                                                                            Page 8
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     NIST guidance states that, when an application is critical, it
                     can be desirable to record who accessed the application
                     along with certain details specific to each use. The decision
                     about how much to log and how much to review should be a
                     function of application or data sensitivity and should be
                     decided by each functional manager or application owner
                     with guidance from the system administrator and the
                     computer security manager, weighing the costs and benefits
                     of the logging.13
                     The Office of Mission Assurance indicated that addressing
                     widespread computer security problems should start at a
                     common ground, which, in this case, was the operating
                     system level. We believe the IRS should also run and
                     review application audit trails for the major applications, at
                     a minimum.
                     The IRS’ modernized system to collect and generate
                     useful audit trail reports was not working as intended
                     The IRS and the PRIME contractor14 developed the Security
                     Audit and Analysis System (SAAS) to meet audit trail needs
                     for modernized systems and the IDRS. Key information
                     necessary to detect improper activities and to reconstruct
                     events for potential criminal investigations was to be
                     collected and stored in a central database warehouse from
                     which users could generate reports and create custom
                     queries.
                     However, the SAAS is not working as intended. As a result,
                     IRS business units, the Office of Mission Assurance, and
                     the TIGTA cannot use the SAAS to carry out their
                     monitoring responsibilities.
                     In our review of audit trails for modernized systems,15 we
                     found that audit trail data are being stored, but the SAAS
                     does not have adequate functionality and software

                     13
                        NIST Special Publication 800-12, Introduction to Computer Security.
                     14
                        The Computer Sciences Corporation serves as the PRIME contractor
                     to design and develop modernization programs and projects for the IRS.
                     The Business Systems Modernization Office within the IRS coordinates
                     and oversees the work of the PRIME contractor.
                     15
                        The Audit Trail System for Detecting Improper Activities on
                     Modernized Systems Is Not Functioning (Reference Number
                     2004-20-135, dated August 2004).
                                                                                    Page 9
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     performance to support queries of the data. In addition,
                     operating procedures for the SAAS have not been
                     developed. Consequently, even if the SAAS was
                     functioning, users would not be able to conduct effective
                     audit trail reviews.
                     Not having a functioning audit trail inhibits the IRS’ ability
                     to detect unauthorized activities on its modernized systems
                     that have been implemented. Future applications that will
                     provide the key tax administration functions in the
                     modernized environment will rely solely on the SAAS to
                     provide meaningful audit trail reports. The inability to
                     detect unauthorized activities on these systems is a
                     significant security risk that should be considered in
                     deciding whether these systems should be accredited and
                     implemented.
                     The deficiencies of the SAAS have been reported in another
                     TIGTA report solely on that topic. As such, we are not
                     making recommendations to address SAAS deficiencies in
                     this report.
                     Overall, the IRS’ strategy to address audit trails was aimed
                     at the root causes that have plagued the IRS for years
                     (inadequate computer capacity, automated reporting
                     software needed to help analyze the vast amount of audit
                     trail information, accountability and staffing to carry out
                     audit trail review responsibilities, and sufficient guidelines
                     to assist in conducting audit trail reviews). While
                     significant progress has been made in implementing this
                     strategy, problems still exist. Additional effort is needed to
                     ensure audit trails are run and monitored on the Tier 2
                     computers, existing applications, and modernized
                     applications before the audit trails material weakness area is
                     downgraded.
                     Recommendations

                     The Chief, Mission Assurance, should keep the audit trails
                     area as part of the computer security material weakness
                     until:
                     1. The Tier 2 eTrust® audit trail software is operating
                        effectively and security specialists are performing
                        regular reviews of Tier 2 systems’ audit trail data.
                                                                            Page 10
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     Management’s Response: The Chief, Mission Assurance,
                     partially concurred with our recommendation. While not all
                     audit trail weaknesses have been corrected, the Chief,
                     Mission Assurance, believes the IRS has completed
                     sufficient corrective actions to downgrade this area to a
                     significant control deficiency. The IRS agreed that it must
                     continue to ensure effective implementation of its security
                     program for all computing platforms, including the
                     implementation of the eTrust® software on Tier 2 UNIX
                     systems.
                     Office of Audit Comment: We strongly believe that audit
                     trails should remain part of the computer security material
                     weakness. Audit trail deficiencies in the Tier 2 UNIX
                     environment affect a significant portion of the IRS’
                     computer infrastructure. Based on the Office of Mission
                     Assurance’s inventory of all IRS systems, as of
                     February 2004, 19 (33 percent) of 58 Major Applications
                     and Applications of Interest16 operate on a Tier 2 UNIX
                     platform, which means that employees’ activities on those
                     systems are not being monitored for inappropriate access
                     and use.
                     2. A reasonable approach is developed and implemented
                        for reviewing audit trails over sensitive applications.
                     Management’s Response: The Chief, Mission Assurance,
                     partially concurred with our recommendation. The Chief,
                     Mission Assurance, believes that the area of audit trails for
                     applications is out of the scope of determining whether the
                     audit trail area should be kept as a material weakness.
                     However, in response to the issue of developing and
                     implementing audit trail reviews over sensitive applications,
                     the IRS is working with NIST guidance to define
                     application-level auditing requirements. In the interim, the
                     IRS has issued the specific requirements for
                     16
                       The IRS has defined Major Applications as applications that require
                     special attention to security because of the severe adverse effect that
                     compromise of those applications would have on the IRS mission, tax
                     administration functions, and/or employee welfare. In addition,
                     Applications of Interest are defined as applications that do not possess
                     the level of interest, size, or scope of Major Applications but require
                     additional levels of control because, based on business functionality,
                     level of exposure and third-party interest, compromise would
                     significantly degrade the IRS mission and tax administration operations.
                                                                                    Page 11
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     application-level auditing and has been working with
                     Modernization projects to ensure audit requirements are
                     built into applications during the development phases. In
                     addition, when applications are identified for recertification,
                     the IRS will determine if applications auditing can be
                     implemented. If not, the project will be assessed to identify
                     risks and to develop cost-effective risk mitigation strategies.
                     Office of Audit Comment: We disagree with the Chief,
                     Mission Assurance, that application auditing is out of the
                     scope of the material weakness definition. As part of this
                     review, we determined whether the actions planned to
                     resolve the specific vulnerabilities were sufficient to close
                     the weakness. We contend that application audit trails are
                     critical for monitoring user activity on specific applications
                     and should be considered when determining the materiality
                     of computer security weakness areas. As stated in this
                     report, the IRS has taken great strides on maintaining and
                     reviewing audit trails over its IDRS application. Just as
                     critical are the numerous other applications that contain
                     sensitive taxpayer data.
                     3. Critical applications are removed from Tier 2
                        unconsolidated UNIX servers or consolidated into a
                        more secure environment.
                     Management’s Response: The Chief, Mission Assurance,
                     partially concurred with our recommendation. Because the
                     IRS made a risk-based decision to continue to operate an
                     older version of UNIX that cannot support audit trail
                     functionality and has taken ancillary steps on audit trails in
                     general, the IRS believes its efforts support reducing audit
                     trail vulnerabilities to a significant control deficiency. Until
                     these servers have been replaced, the IRS will continue to
                     provide enhanced continuous monitoring of applications and
                     systems residing on these servers.
                     Office of Audit Comment: We disagree with the Chief,
                     Mission Assurance, that the IRS actions are sufficient to
                     downgrade audit trails to a significant control deficiency.
                     Because the IRS’ response did not provide specific detail on
                     what constitutes enhanced auditing and monitoring of these
                     systems, we believe the operation of these servers represents
                     serious security vulnerabilities since the IRS cannot monitor
                     user activity on these servers.
                                                                            Page 12
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     The risk-based decision to operate vulnerable servers may
                     have been justified since, for example, keeping the ICS
                     application operational supports the collection of delinquent
                     taxes. The acceptance of this risk does not preclude the IRS
                     from being held responsible and accountable for ensuring
                     security attributes are maintained on its systems. Based on
                     the Office of Mission Assurance’s inventory of all IRS
                     systems, as of February 2004, approximately
                     11 (19 percent) of 58 Major Applications and Applications
                     of Interest operate on the unconsolidated UNIX
                     environment, which represents over 700 servers throughout
                     the nation. Thus, we believe the audit trails should remain
                     part of the computer security material weakness until this
                     insecure environment no longer exists.
                     4. The SAAS is providing usable audit trail data for
                        modernized applications.
                     Management’s Response: The Chief, Mission Assurance,
                     did not concur with this recommendation, stating that the
                     issue and recommendation are new and unrelated to the
                     scope and coverage of the original reported material
                     weakness.
                     Office of Audit Comment: We disagree with the Chief,
                     Mission Assurance, that the reporting of the audit trail
                     system for modernized systems should not be part of our
                     scope of work for the audit trail material weakness area.
                     While our review on the SAAS was not originally planned
                     as part of our material weakness reviews, the review of audit
                     trails for modernized systems is at least as critical as
                     reviews of legacy systems.
                     The Chief Information Officer should:
                     5. Direct the Director, Enterprise Operations, to continue
                        with updating and implementing the Tier 2 eTrust® audit
                        trail software on all applicable servers and ensure audit
                        trails are being regularly generated and reviewed.
                     Management’s Response: The Chief Information Officer
                     agreed with our recommendation and the Enterprise
                     Operations Services office has enhanced the eTrust® Access
                     Control software to correct existing problems. The software
                     will be tested and installed on all Tier 2 consolidated
                     UNIX-based systems. After installation, the Enterprise
                                                                            Page 13
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                     Operations Services office will ensure that eTrust® audit
                     trails are regularly generated and reviewed.
                     6. Coordinate with the Office of Mission Assurance to
                        develop and implement a reasonable approach for
                        reviewing audit trails over major applications.
                     Management’s Response: The Chief Information Officer
                     agreed with our recommendation and will work with the
                     Office of Mission Assurance and other business units to
                     develop and implement a reasonable approach for reviewing
                     audit trails over major applications.




                                                                          Page 14
                The Use of Audit Trails to Monitor Key Networks and Systems
               Should Remain Part of the Computer Security Material Weakness

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has effectively resolved vulnerabilities associated with its computer security material
weakness. The IRS has segregated this material weakness into nine areas, one of which covers
the monitoring of key networks and systems, commonly referred to as audit trails. The
Department of the Treasury requested that the Treasury Inspector General for Tax
Administration (TIGTA) provide an independent assessment on the effectiveness of the IRS’
actions to address its computer security material weakness. This review, related to the
monitoring of key networks and systems, is one of five reviews conducted this fiscal year to
meet the request.
I.      To determine whether the IRS identified the significant vulnerabilities that need to be
        corrected before closing the computer security material weakness, we:
        A.       Interviewed Modernization and Information Technology Services (MITS)
                 organization and Office of Mission Assurance staff.
        B.       Reviewed relevant IRS and TIGTA documentation and reports on the IRS’
                 approach to resolving the material weakness.
        C.       Documented variations between IRS and TIGTA material weakness
                 vulnerabilities.
II.     To determine whether the actions planned to resolve the specific vulnerabilities were
        sufficient to close the weakness, we interviewed IRS staff, reviewed documentation,
        conducted site visits of IRS validations and corrective actions, and evaluated the actions.
        We made site visits to five locations: the IRS Headquarters in New Carrollton,
        Maryland; the Martinsburg, West Virginia, and Memphis, Tennessee, Computing
        Centers;1 and the Brookhaven, New York, and Memphis, Tennessee, Campuses.2 To
        increase audit efficiency and reduce the burden on IRS staff, we judgmentally selected
        sites that were important in the IRS validation effort and contained major computer
        facilities.




1
  IRS Computing Centers support tax processing and information management for IRS campuses through a data
processing and telecommunications infrastructure.
2
  IRS campuses are comprised of the Submission Processing, Accounts Management, and Compliance Services
functions, which receive, process, and archive paper and electronic tax and information returns; issue taxpayer
notices; process refunds; answer taxpayers’ tax law/account inquires through telephone, correspondence, fax, and
email; adjust taxpayer accounts; conduct correspondence examinations; and provide taxpayers with post-filing
services related to Collection and Examination function cases.
                                                                                                          Page 15
             The Use of Audit Trails to Monitor Key Networks and Systems
            Should Remain Part of the Computer Security Material Weakness

III.   To determine whether the planned actions taken to resolve the vulnerabilities have been
       fully implemented nationwide, we interviewed MITS organization and Office of Mission
       Assurance staff and conducted substantive onsite testing.
IV.    To determine the effectiveness of IRS actions to resolve specific vulnerabilities, we:
       A.     Verified whether the audit trail feature was active on 4 mainframe, 250 UNIX,
              and 450 Windows network operating systems and on sensitive applications from
              the 5 locations visited.
       B.     Verified whether audit trails were maintained for operating systems and
              applications.
       C.     Verified whether audit trails were being reviewed with effective criteria to
              identify security incidents and what process was used when issues were identified.




                                                                                           Page 16
             The Use of Audit Trails to Monitor Key Networks and Systems
            Should Remain Part of the Computer Security Material Weakness

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Michelle Griffin, Senior Auditor
Myron Gulley, Senior Auditor
Michael Howard, Senior Auditor
Mary Jankowski, Senior Auditor
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Stasha Sue Smith, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                         Page 17
             The Use of Audit Trails to Monitor Key Networks and Systems
            Should Remain Part of the Computer Security Material Weakness

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Assurance Programs OS:MA:AP
Director, Modernization and Systems Security Engineering OS:MA:M
Director, Operational Assurance OS:MA:O
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Business Systems Development OS:CIO:I:B
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Operations OS:CIO:I:EO
Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance OS:MA




                                                                                     Page 18
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness

                                                            Appendix IV


       Management’s Response to the Draft Report




                                                                 Page 19
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 20
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 21
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 22
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 23
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 24
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 25
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 26
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 27
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 28
 The Use of Audit Trails to Monitor Key Networks and Systems
Should Remain Part of the Computer Security Material Weakness




                                                                Page 29
